                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A07100052                                                                          Page 1 of 1



                   We received an allegation that a Co-PI! committed plagiarism within cpurse materials created
           using NSF funds (Allegation I)? In the course of reviewing Allegation 1, we also identified
           apparently plagiarized material within- the NSF proposal itself (Allegation 2). We referred
           investigation into Allegations 1 and 2 to the University.3

                  Regarding Allegation 1, the University determined that not all ofthe elements were present to
           make a finding ofRM based on the federal definition.4 We reviewed the Investigation Report and
           concurred with the University's determination.

                   Regarding Allegation 2, the University was unable to discern whether the PI5 or Co-PI
           was responsible for the plagiarized text and thus could not determine whether RM based on the
           federal definition occurred. We reviewed the Investigation Report and conducted our own review
           regarding authorship of the text. We too could not discern who authored the text and similarly
           did not recommend a finding of RM.

                     During the course of the investigation, the University took the following actions:

                            •   The University suspended and subsequently terminated the project, making the
                                unexpended funds 6 available to NSF.
                            •   The University returned the entire amount of expended grant funds 7 to NSF.
                            •   The University required the PI to attend an ethics seminar and for his grant
                                submissions to need University supervision for 5 years.

           Additionally, we sent the PI and Co-PI individual letters emphasizing the need to be more
           vigilant regarding appropriate citation. We determined these actions are adequate to protect the
           federal interest. Accordingly, this case is closed.




           2


           4


           6
           7




NSF   orG Fonn 2 (11/02)
